<html>
<title> - HAS TSA MET THE DEADLINE TO PROVIDE EXPEDITED SCREENING TO MILITARY SERVICE MEMBERS?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  HAS TSA MET THE DEADLINE TO PROVIDE EXPEDITED SCREENING TO MILITARY 

                            SERVICE MEMBERS?
=======================================================================


                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2012

                               __________

                           Serial No. 112-104

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 





                  U.S. GOVERNMENT PRINTING OFFICE
79-846                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois, Vice Chair      Ron Barber, Arizona
Robert L. Turner, New York           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
                 Vacant, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security........................................     9
The Honorable Chip Cravaack, a Representative in Congress From 
  the State of Minnesota.........................................     1

                               Witnesses

Mr. Christopher McLaughlin, Assistant Administrator for Security 
  Operations, Transportation Security Administration, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     2
  Prepared Statement.............................................     4
Mr. Todd M. Rosenblum, Principal Deputy Assistant Secretary of 
  Defense for Homeland Defense and Americas' Security Affairs, 
  U.S. Department of Defense:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7


  HAS TSA MET THE DEADLINE TO PROVIDE EXPEDITED SCREENING TO MILITARY 
                            SERVICE MEMBERS?

                              ----------                              


                        Wednesday, July 11, 2012

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Walberg, Cravaack, Turner, 
Jackson Lee, and Barber.
    Mr. Rogers. The Committee on Homeland Security Subcommittee 
on Transportation Security will come to order. The meeting 
today is to examine TSA's implementation of Public Law 112-86, 
the Risk-Based Security Screening for Members of the Armed 
Forces Act. I would like to thank everyone for being here, and 
thank our witnesses for taking the time to be here, and also to 
prepare your opening statements. I know it is not something 
that you just do automatically. So I appreciate that.
    Last May, my good friend from Mr. Minnesota, Mr. Cravaack, 
introduced a bill directing TSA, in consultation with the 
Department of Defense, to implement expedited screening 
procedures for members of the military traveling in uniform 
through U.S. airports. The bill made its way through regular 
order and was signed into law by the President in January. 
Today's hearing is an opportunity to hear from TSA and DOD on 
what actions have been taken to meet the 6-month deadline in 
the law, which fell on July 2. I commend Mr. Cravaack for his 
leadership on this issue, for his distinguished service in the 
U.S. Navy, and his continued efforts to support our troops.
    At this time, I would like to yield the rest of my time for 
an opening statement to Mr. Cravaack for any comments he would 
like to make.
    Mr. Cravaack. Thank you, Mr. Chairman. Mr. Chairman, while 
I am glad to see some of the preliminary steps that have been 
taken, I would like to refer to the legislation itself that was 
signed by the President. It reads, ``Not later than 180 days 
after the date of enactment of this act, the Assistant 
Secretary shall--'' now in military jargon that means will; 
there is no compromise--``implement the plan required by this 
act.'' One hundred eighty days after enactment was July 2 of 
this year. The bill didn't restrict the plan to three airports. 
It is tied to expedited security screening for all members of 
the Armed Forces at all times and all airports. We need to have 
this implemented wherever our servicemembers are flying.
    Just last week, I spoke to a servicemember returning from 
the battlefields in Afghanistan. The member was asked to strip 
search down to his--basically, his boots, T-shirt, and without 
a belt, holding up his britches, and in his stocking feet to go 
through security after returning back from defending our 
country. I spoke to another servicemember a few weeks before 
that. Same situation.
    We have spoken about the consistency of TSA procedures in 
earlier hearings, but this is now happening after the law was 
passed by Congress and signed by the President of the United 
States.
    I look forward to hearing from the witnesses about the 
failure of implementation of this plan, how it will be fully 
implemented, and who will be held accountable if it is not done 
in what this body considers a timely manner. I consider it in 
violation of the law. I look forward to hearing the corrective 
actions, and I do not have to remind you our troops deserve 
this.
    Thank you, Mr. Chairman. And I yield back.
    Mr. Rogers. I thank the gentleman. The Ranking Member is in 
another meeting, hearing right now. She is on her way. When she 
gets here, we will go to her opening statement. But in the mean 
time, we will go ahead and get our witnesses to summarize their 
opening statements. I would recommend to other Members that 
they can submit written statements for the record.
    Our first witness is Mr. Christopher McLaughlin. He is the 
assistant administrator for security operations at TSA. Prior 
to his employment to this position, Mr. McLaughlin was the 
federal security director at Denver International and Fort 
Collins-Loveland Airports. Before joining TSA in 2009, Mr. 
McLaughlin was senior director and director of station 
operations for Frontier Airlines. The Chairman now recognizes 
Mr. McLaughlin for 5 minutes to summarize his testimony.

 STATEMENT OF CHRISTOPHER MC LAUGHLIN, ASSISTANT ADMINISTRATOR 
       FOR SECURITY OPERATIONS, TRANSPORTATION SECURITY 
      ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. McLaughlin. Good afternoon, Chairman Rogers, 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify about the Transportation Security 
Administration's efforts to implement the Risk-Based Security 
Screening for Members of the Armed Forces Act.
    As this subcommittee is aware, TSA is taking steps to 
employ risk-based, intelligence-driven measures to deter 
attacks and reduce vulnerabilities to our transportation 
systems. We have learned and continue to learn where and how we 
can modify procedures without compromising security, and we are 
transforming TSA as a result. Expediting screening for U.S. 
military personnel is part of TSA's larger initiative to move 
away from the one-size-fits-all construct that was introduced 
after 9/11.
    With more than 10,000 veterans making up nearly 23 percent 
of our TSO workforce, TSA recognizes the trustworthiness of our 
servicemen and women. We know that they pose little risk to 
aviation security, and we are dedicated to doing everything we 
can to meet the needs of U.S. military personnel when they 
travel by air.
    TSA has met the requirements of the Risk-Based Security 
Screening for Members of the Armed Forces Act. At airport 
checkpoints Nation-wide, U.S. military personnel in uniform, 
whether traveling on official orders or not, are offered 
expedited screening, including the ability to leave shoes or 
boots on, as well as other screening courtesies that 
significantly reduce the likelihood that they will receive a 
patdown or other additional screening procedures. When military 
members do alarm, those alarms are resolved with modified, less 
invasive procedures.
    With regard to family members, they may obtain gate passes 
to accompany departing troops or to meet their loved ones when 
they come home. Additionally, in consultation with DOD, TSA now 
offers TSA PreCheck benefits to active-duty servicemen and 
women flying out of Reagan National and Seattle International 
Airports as part of an initial proof of concept. Of note with 
PreCheck, eligible servicemembers do not need to be in uniform 
or on official travel to take advantage of this initiative.
    This is currently a card-based system; however, TSA and the 
DOD are considering transitioning to a list-based model before 
implementation of this initiative. We believe this approach 
will best enable eligible servicemembers to receive expedited 
screening at all PreCheck airports system-wide.
    In addition to expedited screening efforts, I would like to 
take a moment to familiarize the subcommittee with other ways 
TSA is assisting our U.S. military personnel. Since February 
2005, TSA has partnered with DOD and the military services to 
facilitate the screening of injured and wounded servicemembers. 
Without sacrificing security, TSA provides high-quality service 
to our injured military heroes as they travel through the 
Nation's airports, including nearly 4,000 severely injured 
servicemembers during this year alone. Information about this 
initiative is posted on our public website.
    Federal security directors and their staff also provide any 
assistance that may be required when an honor guard detail 
escorts a fallen servicemember at an airport, such as escorting 
them through secured areas or cargo facilities, or facilitating 
expedited access to these areas. In May 2011, TSA implemented 
new procedures to reduce screening requirements for U.S. 
veterans and their escorts traveling on Honor Flight Network 
flights to Washington, DC to visit the war memorials that are 
dedicated to honor their service.
    TSA employees regularly go above and beyond their required 
duties to honor and support the military. Some examples include 
officers volunteering countless hours at their local USO to 
assist servicemembers and their families. At another airport, 
officers donated their time and materials and handcrafted 
several Quilts of Valor that were donated to hospitalized 
servicemembers.
    While these and countless other actions by TSA officers do 
not constitute official TSA initiatives, we are very proud of 
our workforce that dedicates extra effort to recognizing the 
service of our military personnel.
    Finally, I want to thank Deputy Assistant Secretary 
Rosenblum and our other partners in the DOD. I appreciate the 
balance they have demonstrated through this collaborative 
effort. It is clear that they share our desire to expedite the 
travel experience for servicemen and women, while at the same 
time recognize that no one benefits if we make a move in haste 
that inadvertently compromises the freedom that our military 
has fought so hard to protect, particularly over the past 10 
years.
    Chairman Rogers, the rest of the subcommittee, I thank you 
for the opportunity to appear before you today, and I look 
forward to taking your questions.
    [The prepared statement of Mr. McLaughlin follows:]
              Prepared Statement of Christopher McLaughlin
                             July 11, 2012
    Good morning Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify today about the efforts of the Transportation 
Security Administration (TSA) to implement the Risk-Based Security 
Screening for Members of the Armed Forces Act.
    As has been shared with this subcommittee in the past, we are 
taking a number of steps to employ risk-based, intelligence-driven 
measures to deter and prevent terrorist attacks and to reduce 
vulnerabilities to the Nation's transportation systems. We've learned 
more about where and how we can modify procedures without compromising 
security, and we are transforming TSA and how it accomplishes its 
mission through risk-based security initiatives. Our efforts to 
expedite screening for U.S. Armed Forces personnel are part of this 
larger initiative to move away from the one-size-fits-all construct 
that was introduced after 9/11.
             the requirements of the military screening act
    Signed into law on January 3, 2012, the Risk-Based Security 
Screening for Members of the Armed Forces Act calls for expedited 
security screening of uniformed members of the U.S. Armed Forces who 
present official orders for air travel. Specifically, the Act requires 
TSA, in consultation with the Department of Defense (DoD), to develop 
and implement a plan to provide expedited security screening services 
for a member of the U.S. Armed Forces and, to the extent possible, any 
accompanying family member, if the U.S. Armed Forces member, while in 
uniform, presents documentation indicating official orders for air 
transportation from a primary airport. In developing the plan, TSA is 
required to consider leveraging existing security screening models used 
to reduce passenger wait times; establish standard guidelines for 
screening military uniform items, including combat boots; and 
incorporate any new screening protocols into an existing trusted 
passenger program, credential, or system that uses biometric technology 
and other applicable technologies to verify the identity of individuals 
who travel by air.
           expedited screening available to u.s. armed forces
    TSA recognizes that members of the U.S. Armed Forces, who are 
trusted to protect the security and values of America with their lives, 
pose a lower risk to aviation security. In fact, TSA is proud to count 
many uniformed service members among our employees. Over 10,000 
veterans--or approximately 23 percent of the Transportation Security 
Officer (TSO) workforce--serve on TSA's front line securing our 
Nation's transportation sector, and they take pride in both their past 
and current service to our Nation. Our commitment to recruiting and 
hiring veterans continues, and TSA is working collaboratively with DoD, 
veterans groups, and other agencies towards that end. Similarly, TSA is 
dedicated to doing everything it can to accommodate members of our U.S. 
Armed Forces when they are traveling by air.
    TSA has long provided expedited screening for members of our 
military. At airport checkpoints Nation-wide, U.S. service personnel in 
uniform with proper identification, whether traveling on official 
orders or not, are not required to remove their shoes or boots unless 
they alarm our technology. Other screening courtesies that we extend to 
U.S. military personnel traveling in uniform reduce the likelihood that 
they will receive a pat-down or other additional screening. In 
addition, family members may obtain gate passes to accompany departing 
troops or meet their loved ones when they come home. TSA also expedites 
screening for Honor Flight veterans, and partners with the DoD to 
expedite screening of wounded warriors.
    Additionally, as part of our intelligence-driven, risk-based 
approach to security, TSA now offers TSA PreCheck<SUP>TM</SUP> 
expedited screening benefits to military personnel (including active 
duty, National Guard, the Reserve Components, and active and reserve 
service members of the U.S. Coast Guard) at Ronald Reagan Washington 
National Airport and Seattle-Tacoma International Airport as part of an 
initial proof of concept. All U.S. Armed Forces service members who 
possess a valid Common Access Card (CAC) are eligible. Eligible service 
members may also use the TSA PreCheck<SUP>TM</SUP> lane by presenting 
their valid CAC to the TSA Travel Document Checker (TDC) along with 
their boarding pass. By scanning the CAC, the TSA TDC is able to verify 
the traveler's status as a U.S. service member in good standing with 
DoD. Upon verification, service members may enjoy expedited screening 
benefits such as not being required to remove shoes, light outerwear/
jackets, or belts, or to remove 3-1-1 compliant bags or laptops from 
carry-on bags. Eligible service members do not need to be in uniform or 
on official travel to take advantage of TSA PreCheck<SUP>TM</SUP> 
benefits.
    This initiative holds the potential to significantly enhance the 
travel experience for members of the U.S. Armed Forces at all 
participating airports. By expanding TSA PreCheck<SUP>TM</SUP> to 
members of the U.S. Armed Forces, TSA is able to focus its resources on 
higher-risk and unknown passengers. As always, TSA will continue to 
incorporate random and unpredictable security measures throughout the 
security process.
    As we move forward, TSA and DoD intend to transition from a 
military ID card-based model towards a list-based boarding pass 
issuance model. With this approach, eligible service members will be 
issued a unique Known Traveler Number by DoD for use when traveling, 
consistent with other TSA PreCheck<SUP>TM</SUP> populations. Along with 
name, date of birth, and gender, the Known Traveler Number will be used 
when making an airline reservation to identify the service members as 
TSA PreCheck<SUP>TM</SUP> eligible travelers. TSA and DoD believe this 
approach will best enable eligible service members to receive expedited 
screening at all TSA PreCheck<SUP>TM</SUP> airports. Although there are 
a number of challenges with implementing a list-based model, TSA and 
DoD are working closely to determine next steps as well as time lines 
for screening members of the military through all TSA 
PreCheck<SUP>TM</SUP> lanes.
      additional initiatives to assist members of the armed forces
    TSA employees regularly go above and beyond their required duties 
to honor and support the military. We are proud that our workforce 
dedicates extra effort to recognizing the service of military 
personnel.
    Since February 2005, TSA has partnered with DoD and the military 
services to facilitate the screening of injured and wounded service 
members through the Military Severely Injured Joint Support Operations 
Center program. Without sacrificing security standards, TSA is able to 
provide high-quality service to our injured military heroes as they 
travel through the Nation's airports. Under the program, TSA has 
assisted nearly 4,000 severely injured service members during the 
current fiscal year, and we continue to promote awareness of the 
program through military hospitals, DoD, the U.S. Department of 
Veterans Affairs, and other veterans' support and service 
organizations.
    TSA Federal Security Directors and their staff also work closely 
with military and military-contracted personnel and airport operators 
to provide assistance that may be required when an Honor Guard Detail 
escorts a fallen service member at an airport, provides appropriate 
honors, and participates in the transfer of the deceased service member 
from the aircraft to the hearse, another aircraft, or other ground 
transportation. Air carriers have been instructed to provide a Secure 
Identification Display Area-badged escort to accompany the military or 
civilian escort and Honor Guard Detail to the aircraft while the 
service member's remains are unloaded. TSA provides an escort in 
instances where an air carrier is unable to do so. When the escort or 
Honor Guard Detail arrive plane-side without previously undergoing 
checkpoint screening, TSA will make arrangements to screen the 
individuals at an appropriate location, such as the jetbridge, cargo 
facility, or secure area.
    In addition, the Honor Flight Network transports U.S. veterans and 
their escorts to Washington, DC, to visit the war memorials built and 
dedicated to honor their service. With the assistance of U.S. aircraft 
operators, the Honor Flight Network facilitates flights from around the 
Nation that arrive at airports in the National Capital Region (BWI, 
DCA, IAD). In May 2011, TSA implemented new procedures for passengers 
on Honor Flight Network flights. These new procedures reduce, but do 
not eliminate, screening requirements on Honor Flight Network flights.
    TSA employees have devoted significant time and effort toward 
assisting military personnel, and a few examples include the following:
  <bullet> TSA personnel at Mobile Regional Airport (MOB) and Dothan 
        Regional Airport in Alabama used their personal time to 
        accomplish a project suggested by members of the Employee 
        Advisory Council whereby they donated the materials for and 
        hand-crafted seven unique ``Quilts of Valor'' that were 
        presented to soldiers hospitalized at the Brooke Army Medical 
        Center.
  <bullet> On two separate occasions, a Lead Transportation Security 
        Officer (LTSO) at MOB discovered several service members 
        settling in to sleep in the airport lobby after their flight 
        was canceled. The LTSO and her family provided the soldiers 
        with food and lodging, as well as transportation to and from 
        the airport.
  <bullet> A TSA personnel member at Chicago O'Hare International 
        Airport has been a United Service Organizations (USO) volunteer 
        for the past 7 years, and was awarded the President Volunteer 
        Service Award in 2008 by former President George W. Bush for 
        volunteering 1,000 hours in 1 year at the USO.
  <bullet> TSA participated in the groundbreaking for a new USO 
        facility opening this Fall at Tampa International Airport 
        (TPA), which will be a welcome addition to the support provided 
        to the thousands of military personnel and their families who 
        travel through TPA monthly. These stories and dozens of others 
        are reflective of TSA's efforts to support the military both at 
        and outside of the checkpoint.
                               conclusion
    TSA will continue its efforts to enhance the travel experience for 
soldiers and their families throughout the United States. Chairman 
Rogers, Ranking Member Jackson Lee, I thank you for the opportunity to 
appear before you today, and I look forward to answering your 
questions.

    Mr. Rogers. Thank you, Mr. McLaughlin. Our next witness is 
Mr. Todd Rosenblum. Mr. Rosenblum currently serves as the 
principal deputy assistant secretary of defense for Homeland 
Defense and Americas' Security Affairs. Prior to his 
appointment, Mr. Rosenblum was deputy under secretary of 
intelligence for plans, policy, and performance management at 
the Department of Homeland Security from February 2009 to May 
2011. He has more than 20 years of political policy and 
legislative experience in National security affairs.
    The Chairman now recognizes Mr. Rosenblum for 5 minutes to 
summarize his testimony.

  STATEMENT OF TODD M. ROSENBLUM, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY OF DEFENSE FOR HOMELAND DEFENSE AND AMERICAS' 
          SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE

    Mr. Rosenblum. Thank you, Mr. Chairman. Thank you, other 
distinguished Members of the subcommittee. I appreciate the 
opportunity to address you today on the partnership between the 
Department of Defense and the Transportation Security 
Administration on the expedited processing of U.S. military 
personnel through our Nation's airports. In order to maximize 
the time for questions, my opening remarks will be brief, and I 
respectfully ask that my full statement be made a part of the 
record.
    Mr. Rogers. It will.
    Mr. Rosenblum. Thank you. We are enormously grateful to the 
members of the U.S. Armed Forces for what they do at home and 
abroad for the Nation. Expedited screening is one small but 
tangible way of recognizing and thanking U.S. military 
personnel for their service and sacrifice to our Nation. We 
deeply appreciate our strong and active partnership with TSA on 
this matter, as we do the Members of this subcommittee. We 
appreciate TSA's recognition that members of the U.S. Armed 
Forces are entrusted to protect the security of this Nation 
with their lives, and therefore are eligible for expedited 
airport screening.
    TSA is responsible for the screening of all passengers at 
our Nation's airports, and we support its leadership in this 
area. DOD and TSA have had a long history of working together 
to establish measures to expedite screening for U.S. military 
personnel. TSA has long expedited the screening process for 
Honor Flight veterans, and partners with DOD to expedite 
screening for Wounded Warriors and their families. Maximizing 
the travel experience of our Wounded Warriors and military 
families is well recognized and deeply appreciated by the 
Department of Defense.
    In November 2011, TSA and DOD began a pilot project to scan 
the CAC card of U.S. military personnel traveling from Monterey 
Peninsula Airport, California. Today, based on the results of 
that pilot, TSA is further enhancing the screening experience 
for our military by offering PreCheck, expedited screening 
benefits to U.S. military personnel at Ronald Reagan Washington 
National Airport and Seattle-Tacoma International Airport. 
Expedited screening of U.S. military personnel at these 
airports is in a proof-of-concept phase, and we look forward to 
working with TSA in evaluating whether this program can be 
broadened to include appropriate civilian employees and others 
at the Department of Defense.
    DOD is fully committed to continuing its long-standing 
partnership with DHS, and TSA in particular, to strengthen 
aviation security, while significantly enhancing the travel 
experience whenever possible for our servicemembers. This is 
part of DOD's broader partnership with DHS to strengthen 
already unprecedented levels of personnel, technology, and 
infrastructure committed to security around the country.
    As we continue to work with TSA on the expedited screening 
of DOD personnel, we want to ensure that TSA believes this 
program appropriately balances risk mitigation with overall 
aviation security. We support TSA's deliberate, careful 
approach to managing risk. TSA has proven to be a terrific 
partner in this endeavor, and I see no reason why we will not 
succeed moving forward.
    Chairman Rogers, other distinguished Members of the 
subcommittee, I commend you for your leadership, continued 
interest, and support to our Nation's aviation security and the 
U.S. Armed Forces. Thank you.
    [The prepared statement of Mr. Rosenblum follows:]
                Prepared Statement of Todd M. Rosenblum
                             July 11, 2012
    Chairman Rogers, Ranking Member Jackson Lee, distinguished Members 
of the subcommittee: Thank you for the opportunity to address you today 
on the partnership between the Department of Defense (DoD) and the 
Department of Homeland Security's (DHS's) Transportation Security 
Administration (TSA) to process U.S. military personnel through the 
screening process more quickly.
    We are enormously grateful to the members of the U.S. Armed Forces 
for what they do at home and abroad for the Nation. Expediting 
screening is a small, but tangible way of recognizing and thanking U.S. 
military personnel for their service and sacrifice to our Nation.
    Programs such as this also have a practical benefit: They 
strengthen aviation security by separating out lower-risk travelers, 
such as members of the U.S. Armed Forces, thereby allowing TSA to focus 
its resources on those who present a higher risk. We appreciate TSA's 
recognition that members of the U.S. Armed Forces are entrusted to 
protect the security and values of U.S. citizens with their lives and, 
as such, pose little comparative risk to aviation security.
    Since its inception, TSA has worked in partnership with DoD to 
establish measures to expedite screening for U.S. military personnel. 
For example, U.S. military personnel in uniform with a military 
identification card are not required to remove their boots or shoes 
unless they set off an alarm. TSA expedites the screening process for 
Honor Flight veterans, and partners with DoD to expedite screening for 
wounded warriors and their families. The Honor Flight Network 
organization transports veterans to Washington, DC, to visit their war 
memorials.
    In November 2011, TSA and DoD began a pilot project to expand TSA's 
PreCheck<SUP>TM</SUP> initiative to include U.S. military personnel 
traveling from Monterey Peninsula Airport, California. ``Active duty'' 
U.S. military personnel in good standing--whether in uniform or not--of 
the Army, Navy, Air Force, Marine Corps, and Coast Guard, and ``active 
drilling'' members of the National Guard and Reserves departing on 
domestic flights from Monterey Peninsula Airport were allowed to 
present their valid ``common access card'' to the TSA Travel Document 
Checker in the TSA PreCheck<SUP>TM</SUP> lane for expedited screening.
    A ``common access card'' is a DoD-issued smart card that is used 
for identification and is machine-readable. This card contains 
information that can be verified through a central employment status 
database and is in compliance with Homeland Security Presidential 
Directive 12 (HSPD-12), ``Policies for a Common Identification Standard 
for Federal Employees and Contractors'' (August 27, 2004), which 
established a mandatory, U.S. Government-wide standard for secure and 
reliable forms of identification issued by the Federal Government to 
its employees and contractors. Pursuant to HSPD-12, prior to issuing a 
``common access card,'' DoD verifies the identity of U.S. military 
personnel and screens their records against such databases as the 
Federal Bureau of Investigation's (FBI's) National Criminal Information 
Center (NCIC). By using databases such as the FBI's NCIC, DoD is able 
to screen out applicants with criminal records, as well as known 
terrorists. In turn, these verification and screening steps provide a 
level of assurance to TSA that U.S. military personnel possessing a 
``common access card'' do not pose an inherent threat to aviation 
security.
    Through an agreement with DoD, a TSA Travel Document Checker can 
scan a U.S. military member's ``common access card'' using a special 
card reader and verify in real-time that travelers are members of the 
U.S. Armed Forces and in good standing with DoD. As there is no 
information storage capability on the equipment used to verify U.S. 
military personnel's status, once their ``common access card'' is 
scanned and TSA determines whether the traveler is eligible for 
expedited screening, their personal information is automatically 
erased.
    I want to thank Congress for keeping up the momentum on this 
matter. Just 2 months after Congress passed the Risk-Based Security 
Screening for Members of the Armed Forces Act (Public Law 112-86), TSA 
and DoD announced an initiative to expand TSA's PreCheck<SUP>TM</SUP> 
initiative at Ronald Reagan Washington National Airport to include 
``active duty'' and ``active drilling'' members of the U.S. Armed 
Forces.
    Eligible service members do not need to be in uniform to take 
advantage of TSA PreCheck<SUP>TM</SUP> benefits, and family members 
ages 12 and under can process through expedited screening as well, as 
they already receive modified screening procedures at airports Nation-
wide.
    Today, TSA also offers TSA PreCheck<SUP>TM</SUP> expedited 
screening benefits to U.S. military personnel at Ronald Reagan 
Washington National Airport and the Seattle-Tacoma International 
Airport. We look forward to working with TSA on the expansion of this 
program to other airports, as it becomes available.
    DoD is fully committed to continuing its long-standing partnership 
with DHS and TSA to strengthen aviation security while significantly 
enhancing the travel experience whenever possible for our service 
members. This is part of DoD's broader partnership with DHS to 
strengthen already unprecedented levels of personnel, technology, and 
infrastructure committed to security around the country.
    Chairman Rogers, Ranking Member Jackson Lee, distinguished Members 
of the subcommittee: I commend you for your leadership, continued 
interest, and support to our Nation's aviation security and the U.S. 
Armed Forces. I look forward to working with you in the future.

    Mr. Rogers. Thank you, sir. Right on cue, we have time to 
recognize the Ranking Member, my friend and colleague from 
Texas, for any opening statement that she may have.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. To the 
witnesses, again to acknowledge Mr. Barber for his presence 
here today and certainly Members that we join in with, Mr. 
Miller--Mr. Walberg, I apologize, I am looking. You are not Mr. 
Miller.
    Mr. Walberg. We all look the same.
    Mr. Rogers. Everybody from Michigan looks the same.
    Ms. Jackson Lee. See, that was a good one. The great State 
of Michigan. Mr. Cravaack, of course, thank you for your 
leadership on this. I am pleased to be able to join with my 
colleagues in discussing an important issue that there should 
be no divide on, and that is can we move quickly for the 
expedited screening for our military servicemembers?
    There is not one of us that have gone through America's 
airports and not felt a sense of pride, not boastful pride, but 
pride of respect as we watch men and women of the United States 
military leave for their overseas posts or come home to warm 
and welcoming families. It equally reminds us of those that 
have gone and that were not able to come home.
    I am pleased that TSA and the Department of Defense are 
joining us to discuss how the Federal Government can continue 
to make significant contributions to improve the lives of the 
men and women who serve and protect the United States of 
America. I have long championed intergovernmental 
collaboration, and I am pleased that today we will receive 
testimony about efforts underway to strengthen collaboration 
between DOD and DHS to support our servicemen and women. While 
it is important to pay tribute to those who serve in the 
military, our actions must also honor their sacrifice.
    Just as an aside, Mr. Chairman, just almost a year ago I 
passed legislation that had 419 votes to 0 that would welcome 
home--collaborate with our local communities to welcome home 
our returning combat veterans. We still have the opportunity to 
do that. We cannot waver on the front to ensure that our 
actions speak louder than our words.
    Today, I look forward to our dialogue regarding ways we can 
support our heroes by providing small, but necessary 
accommodations to our servicemembers and veterans as they pass 
through our Nation's airports. It is also important to 
recognize TSA for its contributions to assisting our veterans. 
For example, Administrator Pistole worked with the Honor Flight 
Network, which is a system established to enable our veterans 
the opportunity to visit the Nation's capital to tour their 
memorials, to ensure their screening was conducted in a 
dignified manner. We also know that many of our TSO officers, 
many of our supervisors, many of our heads of our various 
airports under TSA are in fact returning veterans or those who 
actively served just recently.
    Further, TSA has initiated the Wounded Warrior Program, 
which includes modified screening policies at the airport 
checkpoint to ensure that military personnel and veterans who 
are wounded when they answered their country's call to duty are 
screened with the dignity and respect they deserve.
    Finally, I would be remiss if I failed to mention that 
veterans comprise about one-quarter of the TSA workforce, as I 
indicated earlier. At our hearing yesterday, we heard from the 
other side of the aisle regarding their desire to cut the 
workforce by some 30 percent. According to Mr. McLaughlin's 
testimony, TSA employs over 10,000 veterans. One of the 
witnesses indicated that he was prepared to accept the 
leadership of the men and women on the ground, including 
Administrator Pistole, in the use of the manpower and woman 
power that they have. We all commit to it being efficient and, 
of course, effective. I would encourage my colleagues on the 
other side of the aisle to be mindful that a cut of 30 percent 
to the TSA workforce would result in 3,000 veterans who 
answered the call to duty following 9/11 being back on the 
streets looking for work.
    I hope that TSA's implementation of these policies for the 
military and veterans signals its willingness to move forward 
toward the kind of commonsense screening practices that 
Democratic Members of the committee have long called for. I 
remain convinced that TSA can also institute screening 
practices that ensure the respectful treatment of all 
passengers--we have recently, of course, addressed the question 
of seniors and children under 12--but all treatment of 
passengers with disabilities without compromising security.
    I commend Administrator Pistole and his administration for 
these efforts to reexamine screening protocols. As such, I 
would like to take this opportunity, Mr. Chairman, to just 
mention 10 positive changes initiated by TSA at our checkpoints 
that have been enhanced by Administrator Pistole and the 
workforce of men and women committed to serving their country.
    Screening modifications for children under the age of 12, 
which ensure several non-intrusive steps are taken by TSOs 
while screening children at the checkpoint.
    No. 2, screening modifications for the elderly that allow 
TSOs to respectfully screen the elderly, particularly those who 
may rely on mobility devices such as wheelchairs and walkers.
    No. 3, screening modifications for passengers with certain 
medical conditions. This process allows passengers to 
communicate a sensitive medical condition that should be 
considered by a TSO during the screening process.
    No. 4, the establishment and expansion of expedited 
screening service known as PreCheck for passengers who 
voluntarily undergo a background check administered by DHS like 
our Chairman.
    No. 6, TSA has also implemented a risk-based screening 
initiative just known as the Known Crewmember Program, designed 
to serve pilots, upon verification of employment, with an 
expedited screening, and allowing TSOs to place greater 
emphasis on the unknown threats at the checkpoints. We look 
forward to flight crew having that ability.
    No. 6, modified screening procedures for military members 
traveling in uniform that honor our U.S. military personnel by 
allowing them to undergo flexible screening. We are here today 
to make sure that works.
    No. 7, TSA's integrated use of PreCheck lanes by active 
military personnel when they are not in uniform.
    No. 8, TSA, in partnership with DOD, has instituted a 
Wounded Warrior Program where a severely injured servicemember, 
family member, or other representative can contact the Federal 
Government and obtain assistance.
    No. 9, TSA has reduced screening requirements for Honor 
Flight Networks.
    No. 10, TSA continues to work on developing and deploying 
non-intrusive technology.
    So as our veterans from Iraq and Afghanistan return home, 
let's work together to ensure that they truly have a welcome 
face, a welcome Nation, and a welcome respect for their service 
as they travel through the Nation's airports.
    With that, Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentlelady. The Chairman now 
recognizes himself for the first series of questions.
    Mr. McLaughlin, right now active-duty servicemembers can 
only use PreCheck at Reagan Airport and Seattle-Tacoma Airport. 
When will we expect these screening services and this option to 
be available at all PreCheck locations?
    Mr. McLaughlin. Thank you, sir. So currently in the last 
couple months we have been offering PreCheck for military 
members at Reagan, and more recently at Seattle. Just a couple 
weeks ago we opened a second concourse at Reagan National for 
active-duty military on the north pier at that airport. We are 
working with the DOD on what we think is the right solution, 
including a list-based way of interpreting the ID of the 
military man or woman. That is really what is driving our time 
line. We expect to move forward with full implementation to all 
PreCheck cities by the end of calendar year 2013, but we 
certainly are moving as quickly as we can to speed that process 
up wherever possible.
    Mr. Rogers. Okay. Mr. Rosenblum, you know, one of the 
concerns that was raised when we first talked about this was 
the terrorist attack in Texas, where the major killed several 
of our soldiers, and he was obviously active-duty military. My 
understanding is that you all are taking some measures to make 
sure that not just anybody in the military, but people who have 
certain billets and have certain screening will be put into 
this pre-screen option. Can you tell me more about how that 
will work?
    Mr. Rosenblum. Thank you, Mr. Chairman. I can go into it in 
a little bit of detail, but I am afraid part of the response 
will have to come in another closed setting or we will get back 
to you with it.
    Mr. Rogers. That is completely fine.
    Mr. Rosenblum. As just, sort-of, a basic on the approach, 
is the relationship we have with TSA, is we are providing a 
system by which TSA is able to positively identify that the 
person who is coming to the airport is that person. There are 
requirements by which one has this what we call the CAC card in 
DOD. But there are also circumstances by which military 
personnel, if they are engaged in behaviors of concern in a 
general term, whether it is criminal, whether--it is for 
whatever circumstance, that would not necessarily preclude them 
from continuing to have their CAC card unless they are confined 
to their barracks, et cetera. We would be reliant, we of course 
defer to TSA, and I know that TSA has multiple layers to its 
screening process. So our role in this is to be able to provide 
information that confirms that the person who says who they are 
at the airport is in fact that person. Then we rely on our 
colleagues at TSA with its other means to scrutinize 
individuals. Certainly military personnel, if there is 
information to indicate that they either should be sent to 
secondary for screening or should not be allowed on a plane, 
that would be based on TSA's information.
    Mr. Rogers. Okay. Thank you. Mr. Cravaack's bill requires 
TSA to submit a report to Congress on its new screening 
procedures for our military personnel. We haven't seen that 
report yet. When do you expect that to come to this committee, 
Mr. McLaughlin?
    Mr. McLaughlin. Sir, I reviewed a draft of that report 
actually on Monday of this week, and we expect to have that 
final draft issued here within the next 30 days.
    Mr. Rogers. Great. Mr. Rosenblum, have you got any feedback 
from members of the military about how they feel about the 
opportunity to participate in this PreCheck program, or do they 
really know much about it yet?
    Mr. Rosenblum. First, where we have received feedback, the 
feedback is positive, and there truly is appreciation, both 
sort of at the departmental level this collaboration, as well 
as, Mr. Cravaack, for your leadership on this matter. I would 
say, though, in speaking in broader terms, we are still in an 
early phase in terms of marketing and awareness of the program.
    I had the opportunity to visit the TSA officials at Reagan 
National last week, and they were discussing with me the sort 
of rate of flow and awareness of personnel, military personnel 
at this point. There is clearly room for more awareness. That 
is something that we have to work on at the Department of 
Defense. We certainly expect that to occur over time. But there 
is absolutely appreciation to the clear benefit that our 
servicemen and women receive going through the PreCheck system.
    Mr. Rogers. Great. Yesterday we had a hearing, we talked 
about the PreCheck program, and categories of people who should 
be added to it logically from a series of experts. One 
suggestion made was that anybody who has got a top-secret 
clearance, or some sort of high-level security clearance 
certainly would be somebody that I would think would get into 
that. I would think any general officer in the military would 
be in that category.
    Mr. McLaughlin, do you know of any efforts to try to reach 
out to those kind of categories of people?
    Mr. McLaughlin. Sir, we are working to grow populations 
really across the board. Really of interest recently, we have 
added Federal judges into our program and are looking at other 
Federal partners as well to add in based on some of the 
criteria that you have mentioned.
    Mr. Rogers. Excellent.
    With that, I yield to my friend and colleague, the Ranking 
Member from Texas, for any questions she may have.
    Ms. Jackson Lee. Let me take a moment of personal privilege 
and acknowledge, as I begin to ask the questions, I wanted to 
acknowledge her before, but just reinforces the service of our 
men and women in the United States military, and just say thank 
you to retired colonel in the Air Force Ann Testa, who serves 
as our Federal Security Director for the George Bush 
Intercontinental Airport in Houston, Texas, which happens to be 
in my Congressional district. Colonel Testa did not know that I 
would be saying this, but in particular, Mr. Chairman, Ann 
Testa was in the Pentagon on 9/11 and saw the loss of many of 
her fellow soldiers, Air Force personnel, and others, and was 
injured during that time. We owe her a great debt of gratitude. 
I know that she has some future plans. We are going to wish her 
the very best for having left the service of our country in one 
way, and began the service of her country in another way, and 
having come through that horrific experience. Though she has 
always told me she wants no accolades for that experience, for 
there were those whose lives were lost on that day. I wanted to 
make sure that she was in our record, and to thank her, among 
many others.
    Let me, Mr. McLaughlin, try to understand how you are 
juxtaposing the existing procedures that TSA had for 
individuals in the military on duty and not, and your work that 
you are trying to do to meet the standards of this law that 
uses the definition ``expedited''. You have a team studying it? 
You have a task force? Are you meshing it in what you have? 
Tell me what you are now doing.
    Mr. McLaughlin. First of all, thank you for the recognition 
for Ann Testa. I have had the personal opportunity to work 
side-by-side with her on some projects, and she is an 
incredible woman, incredible leader for TSA. With regard to our 
evaluation of the law, certainly in the process we look very 
closely at the tenets that were required and how we would 
manage that across our system. The law requires us to implement 
expedited screening in all priority airports across the country 
based on a threshold of 10,000 passengers. For TSA, that 
recommends about 362 airports. So we needed to find a way that 
we could truly implement the law across the Nation. We looked 
at our existing procedures, including the ability to leave 
shoes and boots on and other courtesies that we extend that 
greatly reduces the likelihood of a pat-down for servicemen and 
women. We looked at our ability to facilitate family members 
and the things that we are already doing with regard to escorts 
through to meet returning servicemembers at their gate. We 
considered those things and determined that with regard to 
that, we were compliant with the law. Our intention has always 
been to be compliant. But not only compliant, we want to 
exceed, we want to do everything we can for the members of the 
armed services.
    So with PreCheck, to the extent we can, we are rolling that 
system out across the country. We will be in 35 airports by the 
end of the year. We are working closely with our partners in 
the DOD to include members of the Armed Forces in each of those 
airports. Truly, those airports represent the lion's share of 
all commercial traffic out of the country in terms of volume of 
passengers. So we think that we can be compliant by doing the 
things that I mentioned previously, but we can exceed the 
requirements by including active-duty servicemembers in every 
PreCheck airport that we have.
    Ms. Jackson Lee. What would it take, if you calculated 362 
airports that are governed under the structure of this bill 
that says 10,000 passengers, is it per day?
    Mr. McLaughlin. Per year.
    Ms. Jackson Lee. All right, 10,000 passengers per year. 
That is a small amount of passengers. I thought you were 
talking about per day. So that is how you get 362. So then how 
are you answering that question? There is a law. The 
calculation suggests 362. How are you responding to that?
    Mr. McLaughlin. So TSA believes that we are compliant with 
the law based on the expedited processes that we have in place 
for military members. We are trying to go beyond that by 
providing PreCheck where we can. The law required us to use 
existing Trusted Traveler programs where possible. For us, we 
don't at this time anticipate rolling out PreCheck to those 362 
airports just because it wouldn't be a break-even for us. We 
wouldn't be able to provide the right level of service based on 
volumes of people coming through. So we had to look at ways 
outside of that Trusted Traveler program to be compliant with 
the law. We couldn't depend on it. We wanted to utilize it to 
the extent we could, but we couldn't depend on it exclusively 
to be compliant with the law.
    Ms. Jackson Lee. All right. So you think that you have 
something in place at the 362 airports that would make you 
compliant?
    Mr. McLaughlin. Yes, ma'am. At every airport across the 
country, active-duty servicemembers are allowed to leave their 
shoes or boots on. Again, we apply a different set of--
different screening that I can't talk about in an open hearing, 
but different procedures that we apply that does reduce their 
exposure to pat-downs. Even in the off chance that an officer 
does alarm, even in that instance we apply a modified 
resolution that is less invasive than our traditional 
resolution of an alarm.
    Ms. Jackson Lee. If the Chairman would indulge me just for 
a moment for Mr. Rosenblum, but Mr. McLaughlin, from your 
reports back from your airports, have you found that you have 
not offended the military, or you have offended them less, or 
that that is working?
    Mr. McLaughlin. Yes, ma'am. I mean my belief is that this 
is working. We often hear anecdotes. In the business that I 
work in, there are one-off anecdotes that we hear all too 
frequently. But they are anecdotes. We screen between 1.7 and 2 
million passengers every day of the year. With that volume of 
people, we do receive accolades from the military. I reviewed a 
number of praises from individuals that are thanking us for our 
assistance to them and real recognition that TSA supports them.
    The real strength that we have is that 23 percent of our 
workforce that comes from the military. They have a true and 
driving passion for the men and women that are serving our 
country overseas today. It is not just their job, it is a true 
passion for them.
    Ms. Jackson Lee. Just quickly, Mr. Rosenblum, you indicated 
that some aspects of the Chairman's question would have to be 
classified. Are you in partnership with TSA on issues that 
might pose a challenge with an individual wearing a uniform and 
something untoward might occur? Are you in collaboration 
because of the Cravaack legislation?
    Mr. Rosenblum. We are in collaboration. We have been before 
the legislation, obviously even more so now. What I would say 
in terms of information about particular threats, there are--we 
share that information. There are processes, there is 
procedures. It is not only with our brethren at TSA, but it is 
also with our colleagues at FBI.
    Ms. Jackson Lee. Thank you. I yield back at this time, Mr. 
Chairman. Thank you very much.
    Mr. Cravaack [presiding]. Thank the gentlelady. The 
Chairman will now recognize other Members of the subcommittee 
for questions they may wish to ask the witnesses. In accordance 
with our committee rules and practice, I recognize Members who 
were present at the start of the hearing by seniority on the 
subcommittee. Those coming in later will be recognized in order 
of their arrival. I will recognize myself for the next 5 
minutes.
    First off, Mr. McLaughlin, thank you very much for the 
initiatives that you have done for our Wounded Warriors, and 
also for the Honor Flights. I have attended quite a few of 
those Honor Flights, and it does make a difference, especially 
for some of those that are in wheelchairs and trying to make 
their way down the jetway. So I thank you very much for that.
    I do have a question, sir, in regards to other than Seattle 
and Washington Reagan, can you please tell me what the 
difference would be from previous to the enactment of the bill 
and to what it is today?
    Mr. McLaughlin. As I have stated, we do believe that we 
were compliant with the law before it was enacted. So to your 
point, we have not taken other steps since the date that the 
law was enacted, aside from the things that we are currently 
doing. I will tell you that the work that we do is constantly 
evolving, and we continually look at ways that we can further 
refine our screening process.
    Mr. Cravaack. Okay. So what you are telling me is for a 
majority of the airports throughout the United States you have 
done nothing in regards to in accordance with the law the way 
you interpreted it. Is that correct?
    Mr. McLaughlin. I believe that we are compliant with the 
law because of work that we were already doing.
    Mr. Cravaack. Have we read the bill? The bill says right 
here, it says in regards to the ``shall,'' that supposed to be 
in compliance to showing military ID, in uniform, with orders. 
Now, Mr. Rosenblum, you have asked--you said that you have been 
trying to advertise the PreCheck program in DOD, is that 
correct?
    Mr. Rosenblum. Yes, sir.
    Mr. Cravaack. Could we get copies for the record how you 
have advertised it?
    Mr. Rosenblum. Yes. I will get back to you.
    Mr. Cravaack. Okay. I would appreciate that. Now, the bill 
says here, to the extent possible for accompanying family 
members if the member of the Armed Forces, while in uniform, 
presents documentation indicating official orders for air 
transportation departing from a primary airport as defined in 
section 47102. Have you complied with that?
    Mr. McLaughlin. Yes, sir, we believe that we have complied 
with the requirements of the law. We spent a considerable 
amount of time considering family members. Our whole premise 
with risk-based security is to distinguish passengers based on 
what we know about them. While intuitively you would believe 
that spouses are inherently less risky because of their 
association, we simply don't know enough about grown spouses 
from a risk posture to make that determination. We have, I 
would add, though----
    Mr. Cravaack. I understand about spouses. I understand 
about families.
    Mr. McLaughlin. Okay.
    Mr. Cravaack. But what I am talking about, the mission has 
kind of creeped a little bit. We have not gone to exactly what 
this says. Now, expedited screening, in the hearings that we 
had, the intent of the bill was to have the servicemember be 
able to exit the normal line, and I know we have discussed 
this, but this was the intent in the hearings that we had, exit 
the normal line so that person isn't--the servicemember 
actually helps the rest of the passengers. Because chances are 
in normal lines for screening they are going to alarm. Then 
they have to go back through screening, take off their boots, 
take off their blouse, take off their belts, and then pass 
through screening again. Now, the bill specifically states 
while in uniform, presents documentation indicating official 
orders for air transportation departing from the primary 
airport. That should be enough to suffice for identification. 
Not any kind of special card or anything of that nature. So can 
you tell me, Mr. Rosenblum, why are we requiring, was it, the 
CAC card?
    Mr. Rosenblum. Actually, sir, I will defer to my colleague 
on the protocols. But the discussions and arrangements that we 
have with TSA is to ensure that we are providing a positive 
identification that the person who is saying they are a member 
of the military is in fact that person and is a member of the 
military.
    Mr. Cravaack. I understand that. What does the bill say? 
The bill. The signature right here is the President of the 
United States. The terminology in here is called ``shall.'' 
According to this, while in uniform, presents documentation 
indicating official orders for air transportation departing 
from a primary airport. I don't see anything about a CAC card.
    Mr. Rosenblum. Sir, what I can say to your point is that we 
are working with the TSA in terms of the requirement. We are 
the support entity in this case. As we have an arrangement 
today, it is to ensure we are providing a positive 
identification. The conclusion is it is through the biometric 
card, the CAC card, that we do that.
    Mr. Cravaack. Again, the bill states, the law signed by the 
President of the United States, bottom signature, doesn't say 
anything about a CAC card. It says presenting orders, ID. I can 
get on any military base simply with an ID. How difficult--my 
time has expired. How difficult is it, briefly, to forge a set 
of orders?
    Mr. Rosenblum. I will get back to you, you know, with an 
answer on that question, sir. But I would say if you are 
referring to paper orders, you know, my assumption is the 
ability to forge a paper document is obviously far, far easier 
to do than a biometric card.
    Mr. Cravaack. Okay. My time has expired. I will have to 
yield at this time. I would like to recognize Mr. Barber for 5 
minutes. I see Mr. Barber stepped out. We will go with--I will 
yield to the Ranking Member.
    Ms. Jackson Lee. Mr. McLaughlin, the Risk-Based Security 
Screening for Members of the Armed Forces Act, which was signed 
into law on January 3 of this year, required TSA to develop and 
implement a plan for providing expedited screening for a member 
of the armed services if they were in uniform and presented 
documentation indicating official orders for air 
transportation. Under TSA's policies for screening members of 
the armed services, do military members need to present 
documentation indicating official orders for air transportation 
to receive expedited screening? No. 2, does TSA provide for the 
expedited screening of members of the armed services in 
instances where they are not traveling for their duty? The 
essence of this is: Are you doing more than, as much as, as you 
believe meets the letter of the law?
    Mr. McLaughlin. Yes, ma'am. So the answer is that we don't 
require the orders. So in our belief in terms of interpreting 
the law, we felt that we were going actually above the 
requirements of the law by not requiring that of the 
servicemember. In addition to that, many of our programs, 
including the PreCheck program, allow access to the 
servicemember whether or not they are on active orders, and in 
fact whether or not they are in uniform. They can be in 
civilian clothes and still participate in the program.
    Ms. Jackson Lee. Thank you.
    Mr. Cravaack. I yield to Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. Mr. McLaughlin, 
approximately how many active-duty servicemembers have been 
screened at the PreCheck checkpoint at Ronald Reagan?
    Mr. McLaughlin. I can't say specific to Ronald Reagan. What 
I can say is as of Monday morning, between Ronald Reagan and 
Seattle we just exceeded the 30,000 mark as of Monday morning. 
So because Reagan was open slightly earlier than Seattle, I 
would ball-park that Reagan is probably responsible for 20,000 
of the 30,000. But again, that is a ball-park number.
    Mr. Walberg. Okay. Thirty thousand.
    Mr. McLaughlin. Thirty thousand between the two airports.
    Mr. Walberg. Okay. Did the travel document checker receive 
additional training to learn how to use the card reader 
technology that scans the common access card?
    Mr. McLaughlin. Yes, sir.
    Mr. Walberg. Besides the Department of Defense, did TSA 
consult with any other agencies or outside groups when 
developing and implementing the Risk-Based Security Screening 
for Members of the Armed Forces Act?
    Mr. McLaughlin. I will have to get back to you on that, 
sir. I don't have any recollection of anyone outside DOD.
    Mr. Walberg. Of any outside.
    Mr. McLaughlin. We certainly collaborate with other 
agencies on a number of different issues, but with regard to 
military screening I think we have only spoken with DOD.
    Mr. Walberg. Mr. Rosenblum, are you satisfied with TSA's 
efforts to provide a more seamless expedited screening process? 
Why or why not?
    Mr. Rosenblum. Yes. Actually, we are very satisfied. We 
view this as a win-win collaboration. It is both improving the 
travel experience of our DOD family, and my understanding is it 
also then allows the TSA screeners to focus in on higher-risk 
populations for screening.
    Mr. Walberg. Mr. McLaughlin, I understand that back in 2005 
TSA was granted permission by the Department of Defense to 
place TSA staff in the Military Severely Injured Joint Services 
Operation Center Program. Could you describe TSA's role in 
facilitating screening of injured and wounded military 
personnel traveling through the airports?
    Mr. McLaughlin. Yeah, this is something that I am very 
proud of. The reason I am proud of it, is it truly was a grass-
roots effort on the part of TSA employees outside of the 
headquarters. So this was on the TSA side a field-driven 
initiative back in 2005 to partner with DOD. Currently, through 
one of our major airports we facilitate the travel of wounded 
and injured warriors throughout the country by receiving 
incoming phone calls or inquiries via email about travel dates 
and times of a Wounded Warrior. We will meet them at the curb, 
and then we will expedite their process through the checkpoint 
to provide them truly a seamless travel experience in the least 
invasive way possible. It is a great news story for us across 
the country.
    Mr. Walberg. How many TSA staffers are located at the 
center?
    Mr. McLaughlin. I am sorry, so we did that in 2005. We 
actually now have the staff that facilitates the program on 
behalf of TSA is actually located at Reagan National Airport. 
They are not physically located in the MSI JSOC any longer.
    Mr. Walberg. Okay. Mr. Rosenblum, on that subject, what 
feedback have you received from severely injured servicemembers 
and/or their families in relationship to the involvement of the 
TSA, the service of the TSA at these centers?
    Mr. Rosenblum. Again, I would say certainly at the 
departmental level there is great appreciation. I have not had 
the opportunity to be there at the time that this service was 
provided. So in directly answering the question for me 
personally, I have not received that direct feedback.
    Mr. Walberg. But the feedback----
    Mr. Rosenblum. The feedback from the departmental level, it 
is absolutely positive, it is appreciated. It is obviously a 
very, very difficult time for our Wounded Warriors and their 
families. So it is a great service and benefit to them.
    Mr. Walberg. Okay. Mr. Chairman, I yield.
    Mr. Cravaack. Thank you, Mr. Walberg. I will yield to Mr. 
Turner from New York for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman. This weekend, 52 
Wounded Warriors are coming to my community in the Rockaways to 
be feted by some community groups. They will be coming from a 
couple of locations. But they will be leaving mostly on Monday 
and Tuesday from Kennedy and LaGuardia. I will probably be 
talking to a number of these guys and gals on Saturday. What 
can I tell them about what they might experience? What might we 
be doing to facilitate it when they depart?
    Mr. McLaughlin. First of all, I appreciate the heads-up. 
Typically, we see these folks in smaller numbers. I would 
encourage, under those circumstances, for them to reach out 
directly through our website. There is a link to the email 
address, and there is also an 800 phone number that goes direct 
to TSA to set up the service in advance. With the large numbers 
that you are talking about, we will work through the MSI JSOC 
to set up something specific to accommodate such a large group 
at once. We are happy to do that. So again through the 
coordination, we will set up to understand their arrival times, 
whether it is at LaGuardia or JFK. In fact if we can get 
information from them sooner, from whatever their departing 
airport is. Not 100 percent of TSA airports----
    Mr. Turner. They are not necessarily leaving in a group. 
Some of them are coming back----
    Mr. McLaughlin. We can compile their information. We do 
stuff similar like this with the Disabled American Vets winter 
sports clinics in the Colorado area, and their summer clinics 
in the California area as well. With large numbers, we can 
formulate a spreadsheet and identify where they are traveling 
out of and assist them. It is, again, something that we take 
great pride in doing, and we think it is a great service to our 
wounded and injured veterans.
    Mr. Turner. All right. The central clearing place is what? 
If I find it on the web?
    Mr. McLaughlin. Just by going to www.tsa.gov. There is a 
link for Wounded Warriors right on that website. It provides 
both the 800 number and an email link.
    Mr. Turner. Excellent. Thank you.
    Mr. McLaughlin. Thank you.
    Mr. Turner. I yield back.
    Mr. Cravaack. Thank you, Mr. Turner. The second round of 
questioning will occur. I will just go ahead, and the Ranking 
Member is back, I recognize myself for 5 minutes once again. 
One of the things I want to say to the TSA, I don't have a 
problem with TSA coming up with a way to extend expedited 
screening to all members of the military. I think it is a great 
goal. But this legislation was designed to handle a specific 
situation where members of the military who are under orders to 
serve, and most particularly those that are returning from the 
battlefield, they should be accorded the highest honor and 
should not be treated in a way that ultimately demeans their 
service. It is not clear to me that TSA has given those 
circumstances much thought. As the legislation specifies, I 
would like to think at a minimum TSO supervisors should be 
trained to intervene in such circumstances as we heard about in 
a hearing just yesterday. But I point out again to the 
President's signature on the legislation which I showed you 
earlier as the Commander-in-Chief. Implementing this law is not 
optional. From what I have been hearing, this law has not been 
properly implemented. The reason why I say that is, Mr. 
McLaughlin, you said there has been no difference in the 
majority of the airports between pre-law and post-law. The goal 
was when our warriors come home that they are treated with the 
dignity that they deserve. They do not have to go through the 
type of waiting in lines, going through screening, and then 
have to go back through again and go through the routine. 
Nothing has changed. If this wasn't a problem earlier, 
gentlemen, I wouldn't have taken the length of time to craft 
the law. But I would suggest to you that I am telling you that 
the concept or the intent of the law is not being followed. Our 
servicemembers deserve better. So I am willing to work with you 
on ensuring that this is done, but I have to tell you that I 
think you are in violation of the law. I will give you some 
time to try to figure it out. But we took Iraq in less time. 
You had 6 months, 180 days, to figure this out. We took Iraq in 
less time.
    So with that, I would like to entertain any questions that 
the Ranking Member may have.
    Ms. Jackson Lee. Well, Mr. Cravaack, I know that your 
intentions were commendable and good and respected, and we 
joined you in your sincerity and the importance of this 
legislation. I don't doubt that Mr. McLaughlin and Mr. 
Rosenblum and the DOD and the TSA does not have the same 
vitality in their commitment. I think what we will need to do, 
first of all, I would like to officially put on the record a 
request, as I work with the Chairman of the subcommittee, that 
we have as quickly as possible a classified briefing to be able 
to discern some of the particulars that are occurring. I would 
offer to say that the Wounded Warrior Program should now fall 
under Mr. Cravaack's law. There should be even a more expedited 
response to those individuals so that Wounded Warrior is in 
place, but I think what Mr. Cravaack is saying is that we want 
to add that enhancement. I believe that the good intentions are 
here. If, Mr. McLaughlin, you will go back to your team and 
have the interwovenness clarified, I think we will be where we 
want to be. There is no one at TSA that I would attribute in 
any way the desire to not operate under Cravaack's legislation, 
of which we all joined, and the idea of giving dignity and 
respect to our men and women who have either just returned, who 
are traveling as Wounded Warriors, or in essence are our men 
and women in the United States military in uniform or not. If 
we had our wishes, we would also go back to our veterans. We 
understand there is obviously concerns for some who are elderly 
veterans. So we know we have concerns in the traveling public. 
Just this past week, an elderly person with a cane who didn't 
speak English and was blind on the airplane went into a fit, 
83, somewhere around that age. What happened, the person got 
frightened. It was not a veteran, was not a military person, 
but responded because they were unescorted, they were 
frightened. We know that just travel can be frightening. So if 
you are an individual, and thank goodness for the sensitivity 
of the airline and crew, this person wasn't ultimately 
arrested. But they actually had to detour and land somewhere 
else. We don't want any frustrations to come to soldiers and 
others, soldiers in particular that this law depends upon or 
focuses on. But I might be thinking that we want to deal with 
elderly veterans. So we have many challenges in this industry, 
in this responsibility of securing the homeland. I can only 
accede to the fact that you are trying. In my questions, I need 
to hear that from you. I need to ask Mr. Rosenblum, is DOD 
taking this seriously? Let's overlook Wounded Warrior and 
everything else. Let's say are we focusing on new law that is 
in place that wants to add that extra dignity? So Mr. 
McLaughlin, I can appreciate the need for special screening 
procedures for certain populations. I think the general public 
wants to know when we can all receive the type of expedited 
screening provided by PreCheck pilot. I want to wrap that into 
what you are doing for our soldiers, but also to talk about 
moving forward in the general population. Do you envision a day 
when TSA affords all persons the ability to keep their shoes on 
and their laptops in their bags, including the flight crew 
members which don't have PreCheck right now?
    So my first question is: Show me the depth of sincerity of 
complying with the law which this hearing is about. Then the 
next is: When are we going to meet our obligations with all 
traveling passengers in terms of a more efficient means of 
going through the security checkpoint?
    Mr. McLaughlin. Thank you. So from a sincerity perspective, 
I can just tell you that both the DOD and TSA, the members of 
both of our teams that are working hard on implementing things 
like PreCheck and other procedures, are incredibly sincere 
about what they and we are trying to achieve. We have been 
sincere about this now for quite some time to roll out, as the 
administrator says, the most effective security in the most 
efficient way. We are working hard on that goal.
    With regard to facilitating the travel experience for 
people in general, over the past year, and as you pointed out 
in your opening statement, we have done things for significant 
portions of the population, for children under the age of 12, 
for individuals over the age of 75. We are working with flight 
crews. By the way, flight crew members today, with or without a 
Known Crewmember, are entitled to certain exemptions that the 
general traveling public is not entitled to. So we are making 
those steps incrementally where we can.
    Just last week, as was pointed out in the testimony 
yesterday, but just last week I signed a new procedure in TSA 
that does give supervisors, through the discretion of their 
FSD, more latitude in unusual screening circumstances with 
lower-risk individuals. I certainly envision a way to 
incorporate moving forward U.S. Armed Forces into that group of 
low-risk individuals where supervisors have more discretion.
    So we are constantly evolving, and we are working hard, 
really on a daily basis, to become a smarter, less of a one-
size-fits-all agency now that we have 10 years of experience 
under our belt and some technology.
    That being said, some of the things that you talk about, as 
an example laptops in a bag, some of these really are 
technology-driven. We don't have all the answers yet. But we 
continue to work with industry to get the right technology 
deployed so that we can reduce the burden on travelers.
    Ms. Jackson Lee. Shoes on?
    Mr. McLaughlin. We are working toward that. But as we know, 
the shoes policy was driven by an active threat. We have no 
reason to believe that that threat has diminished in any way.
    Ms. Jackson Lee. The application of this to crew members as 
you have the pilot program, the airline pilot expedited, why 
have we not gone to crew members, who have the same security 
checks as pilots?
    Mr. McLaughlin. So we are working through that issue. The 
administrator has been focused on the flight attendant 
inclusion into Known Crewmember. We do continue to work that 
issue. I believe that we will reach a decision in the not-too-
distant future.
    Ms. Jackson Lee. Mr. Rosenblum--is it blum or bloom? I am 
sorry.
    Mr. Rosenblum. Rosenblum. Thank you.
    Ms. Jackson Lee. I apologize to you. Okay, thank you.
    My question to you is--again, DOD falls in the level of it 
is classified, we can't tell you what we are not doing or are 
doing. So I think the question that I want to repeat again is 
that DOD is taking the Cravaack legislation seriously?
    Mr. Rosenblum. Yes, ma'am, we are.
    Ms. Jackson Lee. You are familiar with it? Do you realize 
that I think what we are asking is that though you may have 
existing, if you will, privileges that you have gained through 
collaboration with TSA, that we are now looking for enhanced 
response. So the question comes again, while you are doing 
that, are you ensuring the sufficient vetting that we don't 
have a Captain Hasan circumstance?
    Mr. Rosenblum. Ma'am, let me start by saying one of the 
reasons I was selected for the job that I am in now is because 
I spent 2 years at the Department of Homeland Security, and one 
of the core requirements for what I do today is to work with 
colleagues now from DOD for a perspective, understanding the 
DHS perspective. That sort of core collaboration is something 
that is real. It is something that is growing. Obviously, DHS 
has only been in existence for, you know, for a relatively 
brief period of time. So I will say first off, the sincerity, 
the desire, the collaboration is all quite, quite good. You 
know, there is areas at which DOD and DHS, you know, have 
disagreement, as does anyone, but this partnership with TSA it 
is robust, and it is active.
    We have formally scheduled meetings to discuss both 
implementation of the legislation and just the traveling 
experience for DOD passengers in general. But in addition to 
that, we also meet far more often, and we are in constant 
dialogue.
    Finally, if I may, and I have said this to Mr. McLaughlin 
in a previous setting, that I think TSA has probably one of the 
biggest challenges in appearing before, you know, the Congress 
and the American people because I have been in the field of 
National security for some time now. The intelligence is real. 
It is specific. I know you receive it, but you know, my core 
belief is that when TSA has a security requirement, it is based 
on information. It is based on threat. I am obviously not here 
as a spokesperson for TSA nor to advocate or speak to how it 
goes about its business on a daily basis. But on the underlying 
issue of the threat, and how DOD personnel, No. 1, how DOD 
could be of assistance to TSA in allowing TSA to focus in on 
the individuals of greatest concern, as I said earlier, it is a 
win-win from a DOD standpoint. Also, and I do apologize for 
having to, you know, say that some of the information that I 
would be glad to--we would be glad to share with you, we would 
prefer to discuss in a closed setting in terms of the specific 
types of threat information, or how we share the threat 
information both with TSA and our colleagues at FBI, but the 
processes do exist, but unfortunately, we don't want to inform 
our adversaries.
    Ms. Jackson Lee. We understand that. We will do that in 
classified. Let me close. There is a vote on, but let me just 
say, I feel comfortable from this hearing that I have two 
committed agencies respecting and understanding both the newly-
passed law, but also the responsibility to the heroes and 
sheroes and other broad population of men and women who have 
served, are serving, and continue to provide for our defense 
and our democracy.
    So I think this is an important hearing, Mr. Chairman, and 
I believe that we have men and women who are working to make 
sure that this legislation is implemented. I yield back.
    Mr. Cravaack. The gentlelady yields back. The Chairman 
recognizes Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman. Just one 
clarification for me. What constitutes a servicemember being in 
good or bad standing, Mr. Rosenblum? Then second, how is that 
transmitted to TSA in such a way that there is up-to-date 
information at the checkpoint?
    Mr. Rosenblum. Thank you for the question. In this context 
what constitutes being in good standing is if that military 
person has their military ID, their CAC card, for the purposes 
of how we work with TSA. If there is threat information about 
that individual, we have relationships and partnerships with 
TSA, with FBI, with State and local law enforcement by which we 
have an obligation and a responsibility to report that 
information.
    TSA has many, many systems, it is my understanding, or ways 
at which they make a determination about the threat of an 
individual person, whether that person is appropriate for a 
certain type of screening, whether they should be, you know, 
allowed to board a plane, that is something that is a multi-
layered process that TSA runs.
    Again, this program that we are discussing here today is if 
you have a CAC card, that military ID, you have gone through a 
level of background check. You have been in the military a 
certain amount of time, and so there is a, what I believe very 
much is a safe assumption that this is a low-risk, lower-risk 
population. But in no case would we say it is a zero-risk 
population.
    Mr. Walberg. Okay, thank you. Thank you, Mr. Chairman.
    Mr. Cravaack. Thank you, Mr. Walberg.
    Just for clarification, does every military member have a 
CAC card at this time?
    Mr. Rosenblum. Yes.
    Mr. Cravaack. So everybody in the military now has a CAC 
card?
    Mr. Rosenblum. Yes.
    Mr. Cravaack. They don't have the old ID anymore?
    Mr. Rosenblum. No.
    Mr. Cravaack. Okay, so everybody has the current 
information then?
    Mr. Rosenblum. That is correct.
    Mr. Cravaack. It is still questionable in my mind that we 
are following the extent and the intent of the law. Since I am 
the maker of the law, I can tell you that we are not where we 
need to be in my opinion. What I would like to do is to have 
both of you confer, and if you would, please, give a report 
back to us on how the problems that we are facing and brought 
up today are going to be solved.
    Again, the intent, I understand your intent. I understand 
that there may be some issues, but sometime during the calendar 
year 2013 is nowhere near where we need to be. So if you would, 
please, by July 23, if we could get something from you, we 
would appreciate it.
    Seeing no further questions, I thank the witnesses for 
their valuable testimony and the Members for their questions. 
The Members of the committee may have some additional questions 
for you, and we ask you to respond to those in writing. The 
hearing for the record will be held open for 10 days.
    This subcommittee stands adjourned. Thank you.
    [Whereupon, at 3:07 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
